No.
IN THE

SUPREME COURT OF THE UNITED STATES

Morgan Mccoy,
— pro se —
Petitioner,
.v.
Michael Bullock,
Tarry House Inc.,
Respondent.

On Petition for Writ of Certiorari
to the Supreme Court of Ohio

SUPPLEMENTAL BRIEF OF PETITIONER

Akron, Ohio — 44320
Morgan Mccoy

234.571.2490

914 Copley Rd., Apt.3

Petitioner — pro se

RECEIVED
OFFICE OF THE CLERK
SUPREME COURT, U.S.

Page 1 of 6

SUPPLEMENTAL BRIEF OF PETITIONER
Following that Supreme Court Rule 15.8, Petitioner Mccoy lodges this suits
supplemental brief so he might get addressed therewith 'other intervening matter not
available — last filing', to wit THIs harassing him further & inconsistent statements.
The evidentiary foundation of Mr. Mccoy's lawsuit is his Chevy SUV. THI's
getting rid of said car- SUV legally, rebutting Mr. Mccoy's ownership of it and thus its
evidentiary basis, would not be unlawful. Yes but, getting rid of said Chevy SUV
illegally, as w/a suborning of its theft, would be unlawful. In the matter now before
the Court Infra, THIs 'John the maintenance man' becomes instrumental so this case.
That said, a 'Minnie', hereon quoted, of THIs Belvidere Apartments- Apt. #1,
said to Mr. Mccoy, 'John the maintenance man told us they don't know who's it (Mr.
Mccoy's Chevy SUV) is'. A Thomas Beach, hereunder quoted, said to Mr. Mccoy, 'John
asked me to file an abandoned car petition and I can have it (Mr. Mccoy's Chevy). THI
agents have persisted in so extrajudicially harassing Mr. Mccoy, as lately as August
2020, about his SUV's ownership. Mr. Mccoy fearing further action and feeling a
pressure so to 'show his papers' to end this insulting defense sent pertinent part
copies of said car-SUV's bill of sale & title to THI & Defense May & June, 2020.
Yes but Mr. Mccoy due a safe parking spot out back of his THI apartment, said
car doors locked end of June, 2020- someone popped the locks, took the battery and
Beach and Minnie have been using said automobile as a dump truck. These actors

Page 2 of 6

in the matter say that this was, yes but again, w/their having asked John the THI
maintenance man whether he knew who owned Mr. Mccoy's car-SUV —John
informing them that he didn't know and encouraging their appropriation of it.
Mr. Mccoy believes that THI's intervening acts so, as per John, absolve Mr.
Mccoy of what had been a duty to keep his said automobile from becoming a nuisance.
Yes but the crux, point of fact, is that said car-SUV being the evidentiary foundation
of said lawsuit— rendering Mr. Mccoy's SUV an 'abandoned' nuisance to be removed,
Mr. Mccoy believes, was THI's unambiguous intent.
These are extrajudicial matters. Mr. Mccoy has little inkling what should be
done about them. He attests w/this pleading, having August 7th through 13th 2020
by email informed THI Defense & THI, what such attempt to take Mr. Mccoy's legally
owned & parked car constitutes, given the context, is THI's suborning an: intentional
further distressing of Mr. Mccoy; theft by deception; tampering w/evidence;
obstruction of justice- in what can no longer be construed as good faith. That in what
Mr. Mccoy attests without hyperbole smacks a bit of a continuing enterprise.
End of February '20 (last filing' January '20), Mr. Mccoy now writing in third
person would through email record in first person an account of the following: while
supervising a 'TNT' man who sprays for pests monthly, THI's 'John the maintenance
man' -that's what he's called around THI- asked Mr. Mccoy, 'Do you know who owns
the Chevy Blazer out back?' Mr. Mccoy responded, 'I own it and you know it: I've been
going back & forth w/Mike (Bullock) nearly two years about just that. The lawsuit?'
John on behalf of Bullock would then attempt said suborning of said car's theft.

Page 3 of 6

THI hasn't stopped harassing Mr. Mccoy. As a reason he might but surmise
that THI is desperate to not lose this case. Mr. Mccoy & Mr. Beach having had words,
Mr. Mccoy listening and Mr. Beach talking, w/Mr. Mccoy showing Mr. Beach his bill
of sale & title to said SUV, concluding they'd been 'played (hoodwinked)' by THI, Mr.
Mccoy figures that basically Mr. Beach figures this over and will cease & desist.
Mr. Mccoy's car parked the last 2 years on the THI lot, John, ground-keeping
right hand man brawn to Bullock's brain, is, ostensibly, privy to such THI 'needs-toknow'. Yes but, John's statements deny as Ferracane's statements (Re. Resp. Tr. Ct.
`Affidavit of Victor Ferracane') affirm Mr. Mccoy's car ownership: each inferring the
others belief's or disbelief's disingenuous inconsistency -there none again better to do
that than these- John asking, who owns car, 2020; Ferracane saying, `(car) owned by
Mccoy — no — action (to be) taken', 2018 (that juxtaposing 'not available — last filing').
John, understanding or having should've understood that, he left Mr. Mccoy's
car 'untouched' until Mr. Mccoy showed THI his bill of sale, May, 2020. Mr. Mccoy
surmises, THI's case based on the car being 'abandoned', they panicked. Men may
believe— or not, what they cannot prove. Yes but they must TRULY believe— or not.
Yes but more broadly & succinctly to the point, there's no believable justification for
THI's disbelieving Mr. Mccoy's ownership of said SUV. Mr. Mccoy's arguing so is buttressed by the unreasonableness of THI's 'John (the Maintenance Man)' disbelieving
Mr. Mccoy's telling him that said SUV is his; John disbelieving THI camera footage
that said as much; John disbelieving Mr. Mccoy's bill of sale w/title that said as much,
these disbelievings defying credulity in what, again, can no longer be construed as

Page 4 of 6

good faith. The standard more likely than not John, sadly an addict and/or compromised by his THI employ or relationship otherwise, doesn't get a more likely better benefit of an implied character comparison w/the cop who'd had no horse in the race and
who's report found Mr. Mccoy said Chevy SUV's owner (similar 'juxtaposing' Supra).
Employee-declarant John accomplices THI. His intent to harass Mr. Mccoy
may be inferred from his presence, his being a THI employee and his conduct'.
Defendant-boss Bullock's respondeat superior failures to act evidence that specific
intent and allude existence of conspiracy and defendant's & declarant's participation
in it. Similarly, we've the seemingly conscripted THI agent-declarants', Beach &
Minnie, court privilege: no new witness/evidence on appeal; and statements against
interest (Beach promised a THI job, Infra; Minnie's THI housing) showing THI
employee/co-conspirators John & Ferracane statements inconsistent. As per a
complicity, co-conspirator statements may be used one against the other w/then the
declaration of each the declaration of all- as alluded by opposing party's statement
rules and in furtherance of conspiracy. Mr. Mccoy attests that Beach & Minnie
statements inferred to him to wit THI still 'believed' the car abandoned as per, as laid
out following, damning extrinsic evidence of prior inconsistent statements: again:
Minnie- 'John the maintenance man told us they don't know who's it (Chevy) is'.
Beach- 'John asked me to file a abandoned car petition and I can have it (the Chevy)'.
Those are also exceptions to the rule against hearsay; recorded recollections of a fresh
memory (August 2020 emails); and admissible hearsay within hearsay.

Page 5 of 6

Below is evidence received prior proffer of those out of court declarations:
THI- 'When Ferracane discovered — Chevy was owned by — Mccoy — no further action
was taken'- Re. Resp. Tr. Ct. 'Affidavit of Victor Ferracane'- Supra, 'juxtaposing'.
Yes but it appears to Mr. Mccoy, Beach getting rid of Mr. Mccoy's SUV was a
quid pro quo w/Beach, a tradesman, saying to Mr. Mccoy as per statements against
interest— his being looked at for a THI maintenance job seemed contingent on said
car petition; Minnie's THI housing alluded to too- retaliation, given facts, possible.
Beach & Minnie statements are consistent. THIs Ferracane & John statements
-compared, contrasted, whatever way you look at them- appear by reasonable lights
inconsistent dissemblings, these ultimately illustrating as more likely than not a
further harassing of Mr. Mccoy. Ferracane's Affidavit also swore before its 'no further
action was taken' lull, to 'not know' Chevy was owned by Mr. Mccoy— John's extrajudicial statements echoing that as more the case w/this continuing, pretextual, bad faith
harassing of Mr. Mccoy (that juxtaposing Rule 15.8 'not available at — last filing').
John is THI's ground keeping head of maintenance. Reasonable minds may
presume probable he is tasked by his boss Bullock on all things THI: grounds, maintenance & Mr. Mccoy's SUV. John's failure at a forthcoming w/Beach & Minnie as to
even Mr. Mccoy's professed ownership of said SUV is evidence of THI's guilty mind.
Cagey silence is even still silence and should be considered an admission of guilt as
per civil law. Yes but, even more than that this has been, on THI's part, a most subtle
game of throw the rock & hide the hand: harass, deny & get rid of the evidence. THI's

Page 6 of 6

inconsistent dissembling, w/THI suborning as outlined in the matter now before the
Court, is again evidence of THI's consciousness of guilt; that Bullock did not properly
produce the Ferracane affidavit. John's & Ferracane's statements attempt defying a
law of non-contradiction, a black & white binary: there can be but one that's true, one
that's not and the one that's not is an additional indicting of THI's credibility. That
is not opinion. That's fact based and, demonstrable by fact datum in the matter now
before the Court, trial court granting THI summary judgment was plain error.

Conclusion:
With foregoing & just basis Mr. Mccoy requests that this Court grant certiorari
and, court's in the era of Covid closed, enter judgment summarily for Petitioner—
there left nothing more for a jury to do.

Respectfully submitted tuesday the 8th of September, 2020.
/ s / Morgan Mccoy

